      Peace Corps
      Office of Inspector General




Peace Corps/Ghana logo                   Kente Cloth




                         Flag of Ghana




   Final Program Evaluation Report:
          Peace Corps/Ghana
              IG-09-13-E

                                                       July 2009
Final Program Evaluation Report:
       Peace Corps/Ghana
                    IG-09-13-E




        ______________________________________________


                  Susan Gasper
Acting Assistant Inspector General for Evaluations




                      July 2009
                            EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an evaluation of Peace Corps/Ghana’s
operations February 2 – 19, 2009. The evaluation covered fiscal years 2007 and 2008
and reviewed programming, training, Volunteer support, health care, Volunteer safety,
housing, work sites, and staff organization.

At the onset of our evaluation, there were 134 Volunteers and 33 staff in Ghana.
Interviews were conducted with 30 Volunteers (22% of Volunteers) and with 12 in-
country staff. Additional interviews were conducted with Peace Corps headquarters staff,
U.S. Embassy representatives in Ghana, and key project partners. PC/Ghana has four
project sectors: (1) Education; (2) Environment; (3) Health/Water and Sanitation; and (4)
Small Enterprise Development.

PC/Ghana is proud to be the first site that received Peace Corps Volunteers in 1961 and is
preparing to celebrate its 50th anniversary in 2011. Over the years, PC/Ghana has built a
strong program. The OIG evaluation determined that PC/Ghana has a knowledgeable
and competent staff. The post has effective working relationships with project partners
and Peace Corps headquarters and has established effective operational systems related to
programming and most aspects of Volunteer support and training. In addition, the
evaluation determined that the post has been particularly effective in establishing a
system for Volunteers to identify counterparts; this has resulted in strong working
relationships with at least one counterpart or supervisor in the community, which can
greatly enhance a Volunteer’s impact.

In addition to identifying successful systems and initiatives, we identified opportunities to
improve the effectiveness of Peace Corps/Ghana:
   •   Although most Volunteers reported that they were satisfied with their site
       placement, the evaluation identified concerns that could be solved with more
       thorough, in-person site development, including verifying that housing is ready
       for Volunteers when they arrive and identifying the appropriate language for a
       Volunteer to learn.
   •   Language training and the in-service training (IST) curriculum could be adapted
       to better meet Volunteers’ needs.
   •   Although Volunteers stated that they were well-supported on average, Associate
       Peace Corps Director (APCD) support varied and alternate means of support were
       either undefined, not being implemented, or were not well understood by
       Volunteers.
   •   Peace Corps Volunteer Leaders did not have primary projects that comply with
       Peace Corps policy.
   •   Volunteers were not regularly submitting performance reports.

Our report contains 17 recommendations, which, if implemented, should strengthen
programming operations and correct the deficiencies detailed in the accompanying report.



Final Program Evaluation Report: Peace Corps/Ghana                                          i
                                                             Table of Contents


EXECUTIVE SUMMARY ................................................................................................. I

HOST COUNTRY BACKGROUND................................................................................. 1

PEACE CORPS PROGRAM BACKGROUND ................................................................ 1

OBJECTIVES, SCOPE, AND METHODOLOGY............................................................ 2

EVALUATION RESULTS ................................................................................................ 4
PROGRAMMING ............................................................................................................................................... 4

CROSS-CULTURAL UNDERSTANDING .............................................................................................................. 6

TRAINING ........................................................................................................................................................ 7

VOLUNTEER SUPPORT ................................................................................................................................... 10

MANAGEMENT CONTROLS ............................................................................................................................ 16

PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) ................................................................... 22


POST STAFFING............................................................................................................. 23

INTERVIEWS CONDUCTED ........................................................................................ 24

LIST OF RECOMMENDATIONS .................................................................................. 25

APPENDIX A: MANAGEMENT'S RESPONSE

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                    HOST COUNTRY BACKGROUND

The Republic of Ghana is located in Western Africa, bordering Cote d’Ivoire, Burkina
Faso, Togo, and the Gulf of Guinea. Ghana became the first sub-Saharan country to gain
its independence in 1957 and has been viewed as one of Africa’s most stable democracies
since the mid-1990s. Slightly smaller than the state of Oregon, Ghana’s population is
mainly Christian (69%) and Muslim (16%), with 11 official languages spoken in 10
regions. The economy is strengthening as a result of its Growth and Poverty Reduction
Strategy, although Ghana remains heavily dependent on international financial and
technical assistance. More than half of Ghana’s labor force is agricultural, and the
tourism industry is expanding. Chieftaincy and religious disputes, especially in the north,
have lessened recently, although tensions over the land tenure system still persist. After
elections, Ghana successfully transferred power to President John Atta Mills in January
2009.



             PEACE CORPS PROGRAM BACKGROUND

On August 31, 1961, Ghana was the first country to receive Peace Corps Volunteers and
is quickly approaching its 50th anniversary of consecutive service. The United States and
Ghana share an active country agreement that was signed in 1961, and current
Memorandums of Understanding are shared between PC/Ghana and its project partners.
PC/Ghana provides the following projects in targeted communities.

   • Education
   This sector operates in partnership with the Ghana Education Service and the Kwame
   Nkrumah University of Science and Technology. Volunteers teach secondary school
   math, science, information and communications technology (ICT), and visual arts,
   mainly in rural areas. They develop teaching resource manuals, help acquire
   computer and library resources, organize student clubs, work with health clinics, and
   coach sports. They transfer community organization and planning skills by
   mobilizing their schools to build latrines, wells, dormitories, libraries, art studios,
   laboratories, and science resource centers. Many visual arts teachers use sign
   language to teach in schools for the deaf.

   • Environment
   Collaborating partners of the environment projects include the government of Ghana
   and several non-governmental organizations (NGOs) such as the Adventist
   Development Relief Agency. Agro-forestry Volunteers promote alternative
   livelihood activities that increase community members’ income and reduce
   environmental degradation. They also participate in projects that focus on
   sustainability of natural resources by helping to establish tree nurseries and woodlots
   and by assisting communities with their environment plans. Volunteers address
Final Program Evaluation Report: Peace Corps/Ghana                                           1
   environmental issues in community groups, work with farmers to improve farming
   practices, and help communities reduce their dependence on natural resources.

   • Health/Water and Sanitation
   The multitude of partners involved in this sector include: the Ghanaian government,
   the Canadian International Development Agency, and several local and international
   not-for-profit organizations such as ProNet. The Health/Water and Sanitation
   (WatSan) project promotes health and hygiene to reduce water and sanitation related
   diseases and to create awareness and prevention, problem/need identification, and
   community mobilization that will result in action plans, implementation, and capacity
   building. Health Volunteers assist communities in planning, acquiring, operating, and
   managing water and sanitation facilities, and they help rural health clinics extend
   health education and services. They also disseminate information in schools, homes,
   and communities on practical hygiene procedures and sexually transmitted infections.
   Both Health and WatSan Volunteers work to eradicate Guinea worm disease.

   • Small Enterprise Development (SED)
   Partner agencies of the SED sector include the Ghanaian government, Nature
   Conservation Research Center, and U.S. Agency for International Development
   (USAID), among others. SED Volunteers are assigned projects in the areas of eco-
   tourism, small business and micro-business development, financial management,
   marketing, product development, and non-financial services for small entrepreneurs.
   They teach financial management, marketing, product development, and credit
   availability for small entrepreneurs. They have assisted women and youth via
   economic associations and cooperatives to develop agricultural products and crafts
   for export.

In addition, all PC/Ghana Volunteers participate in training and activities involving
HIV/AIDS education and prevention, and gender and youth development.



            OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps/OIG was established under the
Inspector General Act of 1978, as amended, and is an independent entity within the Peace
Corps. The Inspector General (IG) is under the general supervision of the Peace Corps
Director and reports both to the Director and Congress.

The Evaluations Unit within the Peace Corps Office of Inspector General provides senior
management with independent evaluations of all management and operations of the
Peace Corps, including overseas posts and domestic offices. OIG evaluators identify best
practices and recommend program improvements to comply with Peace Corps policies.


Final Program Evaluation Report: Peace Corps/Ghana                                       2
The Office of Inspector General Evaluations Unit announced its intent to conduct an
evaluation of PC/Ghana on December 12, 2008. For post evaluations, we use the
following researchable questions to guide our work:
•   To what extent has the post developed and implemented programs intended to
    increase the capacity of host country communities to meet their own technical needs?
•   To what extent has the post implemented programs to promote cross-cultural
    understanding?
•   To what extent does training provide Volunteers the necessary knowledge, skills, and
    attitudes to integrate into the community and perform their jobs?
•   To what extent has the post provided adequate support and oversight to Volunteers?
•   To what extent are post resources and agency support and oversight effectively
    aligned with the post's mission and program and agency priorities?
•   To what extent is the post able to adequately administer the PEPFAR program,
    support Volunteers, and meet its PEPFAR objectives?

The evaluation team conducted the preliminary research portion of the evaluation
December 15, 2008 – January 30, 2009. This included review of agency documents
provided by headquarters and post staff and interviews with management staff
representing the region and the Office for Overseas Programming and Training Support
(OPATS). In-country fieldwork occurred February 2 – 19, 2009, and was comprised of
interviews with post senior staff in charge of programming, training, and support; the
U.S. Ambassador; the acting Regional Security Officer; and project partners. Interviews
with Ministry officials were limited due to Ghana’s government transition following
Presidential elections in January 2009. In addition, we interviewed a stratified
judgmental sample of 22% of currently serving Volunteers based on their length of
service, site location, project focus, gender, age, and ethnicity. Thirty Volunteers were
identified as part of the sample.




Final Program Evaluation Report: Peace Corps/Ghana                                          3
           Table 1: Volunteer Demographic Data
                                                                   Percentage of
                               Project
                                                                    Volunteers
            Education                                                       39%
            Environment                                                     19%
            Health/Water and Sanitation                                     22%
            Small Enterprise Development                                    20%
                                                                   Percentage of
                               Gender
                                                                    Volunteers
            Male                                                            47%
            Female                                                          53%
                                                                   Percentage of
                                 Age
                                                                    Volunteers
            25 or younger                                                   58%
            26-29                                                           22%
            30-54                                                           15%
            55 and over                                                      4%
           Source: PC/Ghana Volunteer Roster, January 2009.
           Note: Percentages may not total 100% due to rounding.



Nineteen of 30 Volunteer interviews occurred at the Volunteers’ homes, and we
inspected these homes using post-defined site selection criteria. The period of review for
a post evaluation is one full Volunteer cycle (typically 27 months).

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by Council of the Inspectors General on Integrity and Efficiency (CIGIE). The
findings and recommendations provided in this report have been reviewed by agency
stakeholders affected by this review.



                             EVALUATION RESULTS

PROGRAMMING

The evaluation assessed whether post has developed and implemented programs intended
to increase the capacity of host country communities to meet their own technical needs.
To determine this, we analyzed the following:
   •   The coordination between Peace Corps and the host country in determining
       development priorities and Peace Corps program areas.
   •   The existence of project plans based on host country development priorities and
       the Volunteers’ understanding of the project plan goals and objectives.


Final Program Evaluation Report: Peace Corps/Ghana                                       4
   •   Whether Volunteers are placed in sites where they can contribute meaningfully to
       meeting host country development priorities.
   •   Relationships with counterparts that enable Volunteers to have productive work
       assignments that meet host country development priorities.

As a result of the December 2008 Presidential election in Ghana, post staff report that
they will soon establish working relationships with newly placed ministry officials. In
reviewing coordination between PC/Ghana and the host country, PC/Ghana’s
programming in response to development priorities established in Ghana, and
Volunteers’ understanding of their project goals and objectives, the OIG found no
significant areas of concern that would warrant action by the post.

Volunteers reported their satisfaction with job placement as “above average” in
interviews. The OIG observed a good site development practice at PC/Ghana. Post staff
initially interact with a contact person in the community in order to conduct a site
assessment. Later, Trainees are asked to identify a counterpart based on their interactions
with community members and their own judgment of who can best support them.
Volunteers are likely to have a strong working relationship with at least one counterpart
or supervisor in the community as a result.

Staff responsible for site development were not physically observing all Volunteer
housing before Volunteers move in.

Eight of 30 Volunteers we interviewed reported that they moved into housing after
swearing in that did not meet the post’s minimum criteria. We learned from discussions
with Volunteers that a possible reason this has occurred is that staff rely on community
members to provide updates regarding the condition of housing, rather than post staff
verifying the status of Volunteer housing themselves. Peace Corps’ “Programming and
Training Booklet 5” states,

       Often during site identification post staff negotiate housing…with the
       partner agency or community. In these cases a member of the selection
       team will need to return to the site to ensure that all criteria and agreed
       upon expectations have been met. Always make a personal visit to the site
       at least once before the Volunteer arrives to the site.

Community members may not be familiar with Peace Corps’ minimum housing standards
when asked to confirm the status of housing. Placing Volunteers in housing that did not
meet the post’s housing standards could have been prevented if post staff had conducted
in-person observation of housing. This is particularly important given that post staff is
preparing to develop all new sites for the next input in June 2009.




Final Program Evaluation Report: Peace Corps/Ghana                                         5
               We recommend:

                 1. That post staff physically observe housing to
                    ensure it meets the post’s minimum housing
                    criteria before a Volunteer arrives at site.


Staff responsible for site development were not identifying the correct language for
Volunteers to learn in pre-service training (PST).

Seven of 30 Volunteers we interviewed reported that the language they were trained in
was not the language most needed at their work site and in their community. According
to the post’s site development guidance, communities wishing to host a Volunteer
complete a site survey form that is used by post staff to conduct the site assessment. The
Site Survey Form requests information on languages spoken in the community.
However, the form does not indicate that this information is used to determine the
primary language a Volunteer will be expected to speak for work or for community
integration. Further, PC/Ghana’s site development guidance does not specifically discuss
steps for identifying the correct language.

The post would benefit by planning specific milestones for identifying the most
appropriate language during site development, and also by sharing the purpose of
collecting language information with community members. This is particularly important
given that post staff is preparing to develop all new sites for the next input in June 2009.


               We recommend:

                 2. That post staff include the purpose of collecting
                    information on languages spoken in the
                    community on the Site Survey Form.

                 3. That post staff update its site development process
                    to include follow up in the community to
                    determine which language the Trainee should
                    learn during PST for the purposes of working on
                    their primary assignment and for community
                    integration.


CROSS-CULTURAL UNDERSTANDING

The second objective of a post evaluation assesses whether Peace Corps programs in a
given country help promote a better understanding of Americans on the part of the people
served. Cultural exchange is an integral part of the transfer of knowledge and skills that
occurs between host-country community partners and Volunteers. To understand the

Final Program Evaluation Report: Peace Corps/Ghana                                        6
extent to which the post has implemented programs and activities to promote cross-
cultural understanding, we interviewed Volunteers, post staff, and project partners and
reviewed training and evaluation materials.

In reviewing PC/Ghana Volunteers’ cross-cultural understanding, the OIG found that
language is the only cross-cultural challenge that was consistently mentioned by
Volunteers, region staff, post staff, and OPATS specialists. This challenge is addressed
in the Programming and Training sections of this report.

There were no other significant areas of concern that would warrant action by the post.
Volunteers believe they are well-integrated in their communities; 100% of Volunteers
rated themselves as having “average success” to being “very successful” in understanding
cross-cultural issues, with an average rating of 3.9 on a 5-point scale (1 = unsuccessful, 5
= very successful).


TRAINING

Another objective of the post evaluation is to answer the question “to what extent does
training provide Volunteers the necessary knowledge, skills, and attitudes to integrate
into the community and perform their jobs?” To answer this question we consider a
number of factors, including:

   •   The existence of training goals, competencies, and learning objectives that help a
       post understand the skills Volunteers need.
   •   The types of training Trainees and Volunteers receive, the topics covered during
       those training sessions, and whether training targets were met.
   •   The feedback on the effectiveness of training in providing the skills and
       knowledge needed for Volunteer assignments and success.

In reviewing the post’s training goals, competencies, and learning objectives, the OIG
found no significant areas of concern that would warrant action by the post. The post has
hired a programming and training officer (PTO) to better integrate programming and
training. With the support of the sub-regional programming and training coordinator,
both departments are working together to develop more specific learning objectives for
each sector’s technical competencies.

We asked 30 Volunteers to rate the effectiveness of pre-service training (PST) and in-
service training (IST) on a 5-point scale (1 = ineffective, 5 = very effective):




Final Program Evaluation Report: Peace Corps/Ghana                                          7
      Table 2: Volunteer Perceptions of Training Effectiveness
                                                         Moderate (3) /
                                   Ineffective (1) /                         Average
                Area                                   Above average (4) /
                                  Below average (2)                          Rating
                                                        Very effective (5)
       PST:
         Language1                         27%               77%               3.4
         Culture1                           3%               97%               3.7
         Safety/Security1                   0%               100%              4.0
         Medical/Health1                    3%               97%               4.1
         Technical2                        14%                86%              3.4

       IST3                                14%                86%              3.4
       Source: OIG Volunteer Interviews.
       1
         N= 30
      2
        N = 29
      3
        N = 21



Volunteers generally spoke positively about the cultural, safety and security, and health
training received during PST, and the majority of Volunteers gave IST a favorable rating.
Although Volunteers rated all aspects of PST a 3.4 or higher in interviews, they told us
that providing additional technical training and improving language instruction during
PST would improve training. Post staff, region staff, and OPATS specialists all
described the difficulty of teaching nine or more languages in each PST, and post staff
reported that they are currently working to improve language instruction. In addition, as
discussed previously, we recommended that the post take steps to correctly identify the
appropriate language for Trainees during site development. The post’s efforts to improve
language instruction and identify the correct language for PST should improve Trainees’
satisfaction of language instruction.

Some Volunteers reported that they were unable to meet their community members’
expectations when they arrived at their sites.

Twelve of 30 Volunteers we interviewed stated they lacked project-specific technical
training that they believed that they needed when they arrived at their site. Some
Volunteers described that they were approached by community members with questions
that they could not answer, but felt they could have answered if they had received more
project-specific technical training during PST. Comments from Volunteers included:
       “The lesson plans and curriculum isn't dynamic enough to deal with all the
       jobs that SED offers. We never divided up the people who are doing
       microfinance, ecotourism, etc. Instead we did everything as a group.”
       “I had no idea how to build a latrine or how a bore hole works, nor how to
       address riverborne diseases.” [WatSan]

PC/Ghana emphasizes the importance of Volunteers completing a community
needs assessment during their first 12 weeks at site. It is unclear whether
community members were told during site development that the community

Final Program Evaluation Report: Peace Corps/Ghana                                        8
assessment will be conducted before technical projects begin. Helping
community members understand that Volunteers’ contributions will be more
limited in their first weeks at site will allow Volunteers to gain the trust and
confidence of their counterparts and help them to better integrate in their
communities.


               We recommend:

                 4. That post staff better communicate the timeframe
                    and purpose of the community needs assessment
                    with community members during site
                    development.


Some Volunteers were not receiving requests to submit IST needs assessments in time
to provide input for planning purposes.

Seven of 21 Volunteers we interviewed that attended IST commented that either the
material covered during IST was not effectively addressed or was not what they expected
to learn during IST.

The post attempts to include Volunteers in IST planning by distributing a needs
assessment by email. Post staff use this information to plan IST workshops. The OIG is
encouraged by the post’s efforts as Indicator 7.3 of Indicators of a High Performance
Post prescribes the active involvement of Volunteers in the planning of training.

However, we learned from Volunteers that they often do not respond to this request for
primarily two reasons; either they were unaware that an email requesting their input was
sent, or they received the request but were unable to respond prior to attending IST.

PC/Ghana Volunteers’ preferred method of contact is by text message. They described
this as less costly than speaking on the phone or exchanging email; some noted that they
check their email about once per month. Volunteers suggested that the post should send a
text message informing them that their input is needed. Post staff agreed that this method
would yield more responses from Volunteers and are currently researching options for
disseminating information to Volunteers by text message. Multiple means of
communication would facilitate Volunteers responding in time for post staff to
incorporate their feedback into training.


               We recommend:

                 5. That post staff use multiple means of
                    communication to obtain needs assessments from
                    Volunteers in time for IST planning.



Final Program Evaluation Report: Peace Corps/Ghana                                         9
VOLUNTEER SUPPORT

This evaluation attempts to answer the question “to what extent has the post provided
adequate oversight and support to Volunteers?” To determine this, the evaluation
assesses numerous factors, including staff communications to Volunteers; project and
status report feedback; medical support; safety and security support elements such as site
visits, the Emergency Action Plan (EAP), and the handling of crime incidences; and the
adequacy of the Volunteer living allowance.

In reviewing Volunteer safety and security and the living allowance, the OIG found no
significant areas of concern that would warrant action by the post. Ninety-three percent
of the Volunteers interviewed stated that they would report a future crime to Peace Corps.
This may partially be a reflection of the Volunteers’ confidence in the safety and security
coordinator (SSC), and Volunteers who have experienced a crime stated that they were
satisfied with the way Peace Corps handled the situation. In addition, Volunteers stated
that they are familiar with their EAP, and 87% of the Volunteers interviewed correctly
identified their consolidation point. Regarding the living allowance, most Volunteers
stated that they receive enough money to maintain a safe and healthy lifestyle. However,
several Volunteers noted that recent inflation is impacting food prices and making it
harder to subsist on their living allowance.

Overall, Volunteers in PC/Ghana report that they are well supported by staff. Ninety-six
percent of the Volunteers interviewed rated PC/Ghana staff as “effective” or better at
helping them adjust to life as a Volunteer, with an average rating of 3.9 (1 = ineffective, 5
= very effective). For overall support, the average ratings for staff on a five-point scale
(1 = not supportive, 5 = highly supportive) are as follows:

        Table 3: Responses on Perception of Volunteer Support 1
                                                   % of Volunteers rating
                            Average Rating for
               Area                                 “average support” or
                                  Support
                                                           better
          Leadership                          3.9                           96%
          Programming                         3.8                            92%
          Training                            3.7                            93%
          Safety and Security                 3.9                            97%
          Medical                             3.9                            90%
          Administrative                      4.1                           100%
          Source: OIG Volunteer Interviews, 2009




1 The Leadership score was derived from the score for the country director; the Programming score was
derived by averaging the scores for the PTO and APCD; the Training score was derived by averaging the
scores for the training manager and PST director; the Safety and Security score was derived from the score
for the safety and security coordinator; the Medical score was derived from the collective Peace Corps
Medical Officer score; the Administrative score was derived from the score for the administrative officer.


Final Program Evaluation Report: Peace Corps/Ghana                                                      10
The quality of APCD support varied, and some Volunteers reported that they did not
view their APCD as a helpful resource.

Indicators of a High Performance Post states that APCD are often the main
communication link between Volunteers and the rest of the Peace Corps
staff in-country, and Volunteer support is one of their most constant and challenging
duties. It further explains:
             With regard to the Volunteers, APCD/PMs [Associate Peace Corps
             Directors/Program Managers] must find an effective combination of site
             visits, correspondence, ISTs and workshops, coordination with PCVLs,
             personal contact with individual Volunteers, and everything else that is
             required to gain a full understanding of the Volunteers’ conditions,
             problems, needs, and points of view.

Although PC/Ghana Volunteers stated on average that they receive adequate support
from their APCD, Volunteer interviews indicate that some APCDs are more supportive
than others. In particular, Volunteers in the Small Enterprise Development and Science
and ICT Education sectors rated their APCD lower than other Volunteers in a few areas,
including overall support, quality of quarterly report feedback, and site visit
effectiveness. The table below depicts APCD ratings by sector, which is how PC/Ghana
assigns APCDs.

Table 4: Volunteer Responses to Select APCD Support Interview Questions
                            Overall APCD         Quality of quarterly
                                                                        Site visit effectiveness
                              support              report feedback
                                                  % rating
         Sector          % rating “avg.                                 % rating “avg.
                                                    “avg.
                          support” or     Avg.                  Avg.     support” or       Avg.
                                                 support” or
                             better                                         better
                                                    better
    All Sectors 2            87%          3.7        83%         3.4        79%            3.4
    Environment              100%         4.0       100%         3.0        100%           4.0
    Small Enterprise
                             100%         3.3        50%         2.5         50%           3.0
    Development
    Water and
                             100%         4.0       100%         4.0        100%           3.8
    Sanitation
    Education
    (Science and              50%         2.8       100%         4.0         50%           2.8
    ICT)
    Education (Math
                              89%         4.0        78%         3.3         89%           3.3
    and Visual Arts)
Source: OIG Volunteer Interviews, 2009


Typical support problems mentioned by Volunteers include failure to respond quickly
and effectively to problems, brief site visits, and quarterly report feedback that is
untimely or unhelpful. Sample comments from Volunteers include:
2
    N = 30

Final Program Evaluation Report: Peace Corps/Ghana                                             11
       “The response that I get is variable and unpredictable. Sometimes it's very
       supportive and excited but other times I feel like I'm going to be placed in
       some ‘demanding volunteer’ category. [My APCD is] not someone who I
       go to for support with problems at site.”

       “I don't feel comfortable going to [my APCD] . . . Everything has made
       the situation worse and [my APCD] doesn't know how to solve things or
       give advice.”

       “With the last [site visit my APCD wasn’t] there long enough to do
       anything about [my problem]. How are they going to solve it only being
       there for 20 minutes? They didn't understand that there are deeper issues
       driving the surface ones . . . And I feel like [my APCD] came because
       [he/she] was forced to. Nothing was accomplished.”

As a result, some Volunteers reported that they stopped communicating with their
APCDs on a regular basis and did not enlist their help in solving problems; this can lead
to isolated, disengaged Volunteers.


               We recommend:

                 6. That post and programming leadership work with
                    APCDs to clarify the post’s expectations for
                    Volunteer support.


Volunteers reported that they did not know how to get help when their APCD is
unresponsive.

Some Volunteers stated that they were not aware that they can escalate the support
problems they encounter with their APCD. Although PC/Ghana has resources available,
such as a Volunteer Advisory Committee (VAC) and other programming support roles
such as the programming and training Officer (PTO) and Peace Corps Volunteer Leaders
(PCVLs), they are not operating effectively or Volunteers are unsure how to use those
resources to get needed support.

PC/Ghana’s PTO oversees the APCDs. One hundred percent of the Volunteers who have
interacted with the PTO rated the support as “average” or better, with an average of 4.1
(1= not supportive, 5 = very supportive). However, many Volunteers said that they were
not familiar with the role and did not know how the PTO can be used to resolve problems
with APCDs. One Volunteer stated, “I didn't know he was the PTO. But so far the way
he's presented himself makes him approachable. If I knew he was our PTO I'd contact
him more. He's integrated into the culture . . . but he comes from America so he
understands us.”



Final Program Evaluation Report: Peace Corps/Ghana                                      12
Although the Volunteer handbook briefly mentions the role, it provides no description of
the kind of support Volunteers can expect to receive. Clarifying the PTO role and
communicating how he/she can help resolve problems could provide Volunteers with
additional support.

PC/Ghana has two Peace Corps Volunteer Leaders (PCVLs), one in Kumasi and the other
in Tamale. Indicators of a High Performance Post notes that PCVLs can be useful for
listening and offering personal support to Volunteers, sometimes in ways APCDs cannot
achieve, and providing feedback to staff on support areas that need attention. Although
PC/Ghana has two PCVLs, some Volunteers said that they did not know what is expected
of these individuals. Others reported that they did not know who their PCVL is, and
some incorrectly identified their PCVL, often confusing them with the VAC leader or an
emergency contact. Of the Volunteers who could correctly identify and assess their
PCVL, 100% rated their support as “average” or better, with an average rating of 4.5 (1 =
not supportive, 5 = very supportive). This indicates that PCVLs could be another helpful
support tool for resolving Volunteers’ problems if they were more aware of these
individuals and their responsibilities. However, the post needs to find the appropriate
balance between PCVLs’ staff responsibilities and Volunteer duties and make sure the
PCVLs are participating in primary projects. This is discussed further in the
Management Controls section of the report.

Finally, Indicators of a High Performance Post recommends that posts have “a Volunteer
Advisory Council [VAC] or some other mechanism that gathers, analyzes, and funnels
Volunteer concerns and suggestions to staff.” Although PC/Ghana has a VAC, it has not
met regularly, and some Volunteers stated that it lacked communication and follow-up.
One Volunteer commented, “[The VAC is] good because we get to meet with people and
vent. But it doesn't seem like a lot happens through it. You talk and discuss things but . .
. you don't get the feedback from your input.” The country director has established an
annual schedule for the VAC and has published recent meeting minutes and follow-up
actions in the monthly newsletter. This improvement to the VAC should provide
Volunteers with an avenue to communicate problems that need staff’s attention.


               We recommend:

                 7. That the country director determine the process
                    for Volunteers to escalate support issues and
                    communicate it to staff and Volunteers.

                 8. That the country director define the PTO’s role in
                    resolving Volunteer support problems and
                    communicate expectations to staff and Volunteers.

                 9. That the post disseminate VAC meeting minutes,
                    follow-up items, and issue resolution to all



Final Program Evaluation Report: Peace Corps/Ghana                                       13
                          PC/Ghana Volunteers using an effective means of
                          communication.

Some Volunteers reported that they were not satisfied with medical diagnosis and
follow-up care.

PC/Ghana has two full-time Peace Corps Medical Officers (PCMOs). Even though the
majority of the Volunteers interviewed rated their overall medical support as adequate or
better, they indicated that the level of support varies. Some Volunteers reported that they
were more comfortable with one PCMO than the other due to perceived differences in the
accuracy and thoroughness of diagnosis and follow up.

Some Volunteers reported that they were concerned about their medical follow-up care
and provided examples when the PCMO did not follow up regularly to make sure they
were receiving proper care and check on their status. Other Volunteers told us that they
did not believe that their medical conditions were thoroughly diagnosed before a PCMO
prescribed treatment. As a result, the Volunteer may receive multiple medications and/or
treatment methods, which could prolong the illness. A few Volunteers mentioned in
interviews that they were prescribed the wrong medications and/or dosages. One PCMO
mentioned the challenges associated with diagnosing Volunteers’ medical conditions
over the phone and would like to visit the sub-regional offices to diagnose Volunteers in
person.


                    We recommend:

                      10. That the country director work with PCMOs to
                          clarify the post’s and Volunteers’ expectations for
                          Volunteer diagnosis and follow up.


The post’s out-of-site policy is unclear.

According to the PC/Ghana Volunteer handbook, Peace Corps must be able to reach
Volunteers at all times. The “Informal Leave” portion of the handbook states:

           PCVs must notify (verbally or in writing) your (a) community contact and
           (b) PC Ghana (your APCD, Duty Officer, or PCVL) of your destination
           and contact information while away from your site. Notification to your
           community contact must be done prior to travel. Notification to PC Ghana
           may be done prior to departure or, in cases of difficult communication, en
           route, or, on arrival at your destination.

Although the handbook provides some guidance for reporting time away from site, the
OIG determined that the out-of-site policy 3 is unclear and could be misinterpreted by
3
    Also referred to as the “whereabouts” policy in the Peace Corps Manual.

Final Program Evaluation Report: Peace Corps/Ghana                                       14
Volunteers. For example, although the “Vacation, Informal Leave and Out of Site”
section of the handbook has separate policies and sub-sections for “Informal Leave,”
“Vacation Leave,” and “Peace Corps Work-Related Travel,” the information is often
overlapping or discussed in an un-related section. This led to confusion about the use
requirements and notification policies for the different types of leave authorized by
PC/Ghana. Also, the handbook does not define “out-of-site” – it does not clarify if day
trips for either personal or professional activities require notification and does not state
whether there are reasons for spending time away from the community that would not be
counted as informal leave or vacation. Furthermore, the handbook does not instruct
Volunteers how to communicate unplanned overnight stays and whether vacation or
informal leave will need to be used in those instances.

This confusion with the post’s policy could be contributing to Volunteers’ failure to
communicate time away from site. Only 41% of Volunteers interviewed stated that they
always reported time away from site to PC/Ghana. Some Volunteers reported that they
did not think that they need to report trips to nearby villages, regardless of the duration of
the stay. Other Volunteers reported that they were unclear if they should report daytrips
to their APCD. A few Volunteers mentioned that they encounter unplanned nights out of
their site when travel makes it impossible for them to return home in the same day. In
these instances, Volunteers reported that they did not think that they needed to contact
post staff since they were unable to get advance approval.

Although the Volunteer handbook does not state that advance notification is required for
overnight stays, some Volunteers and staff members referred to a 24-hour notification
policy. This lack of clarity and failure to notify Peace Corps of absences from site could
result in a safety and security problem if Peace Corps is not able to locate and
communicate with Volunteers in the event of an emergency.


                   We recommend:

                     11. That the post clarify the out-of-site policy, update
                         related documentation, and communicate this to
                         staff and Volunteers.


Some Volunteers’ Site Locator Forms were missing medical and police contact
information.

Indicators of a High Performance Post encourages posts to maintain emergency site
locator forms and update them regularly. PC/Ghana uses Site Locator Forms (SLFs) that
require Volunteers to provide this important information. As part of the evaluation, the
OIG reviewed the SLFs for 28 of the Volunteers in the interview sample. 4 Most of the
SLFs had accurate maps and directions to the Volunteer’s home as well as multiple
means of contacting the Volunteer, including at least one non-cellular telephone number.
4
    SLFs were not provided for the two PCVLs.

Final Program Evaluation Report: Peace Corps/Ghana                                         15
However, 39% (11 of 28) of the SLFs reviewed by the evaluation team were missing
information about the nearest medical facilities, and 46% (13 of 28) did not have contact
information for local police. As a result, it is unclear whether PC/Ghana verified whether
Volunteers have identified their local police department and are aware of and have access
to medical facilities that have been approved by the PCMOs.


                 We recommend:

                    12. That the country director require post staff to
                        review the accuracy and completeness of the most
                        critical sections of site locator forms.


MANAGEMENT CONTROLS

Another key objective of the post evaluation is to assess the extent to which (1) the post’s
resources are effectively aligned with the post's mission and program and agency
priorities and (2) the agency supports and oversees the post's mission and program. To
address these questions, we assess a number of factors, including the post’s planning and
oversight of operations, staff management and training, relationships with headquarters
offices, and performance reporting.

In reviewing staff performance appraisals and the post’s relationship with headquarters
and the U.S. Embassy in Ghana, the OIG found no significant areas of concern that
would warrant action by the post. Although performance appraisals have not been
consistently conducted in the past, senior staff is putting more emphasis on this, and most
employees have received an evaluation within the past year. In addition, PC/Ghana staff
stated that they are well-supported by Peace Corps headquarters, and the post has a good
relationship and communicates regularly with the Embassy. Furthermore, most of the
post’s medical controls were in place, with the exception of assigning a Medical Supply
Inventory Clerk and an Acceptance Point Clerk, which is discussed later in the section.

Use and oversight of PC/Ghana’s regional sub-offices has improved.

PC/Ghana operates two regional sub-offices, 5 one in Kumasi and another in Tamale, to
support Volunteers in the field. PC/Ghana’s sub-offices are intended to be used as a
resource center, office, meeting space, and sickbay for Volunteers. They are also
residences for the Peace Corps Volunteer Leaders (PCVLs) and can provide temporary
lodging for Volunteers with medical needs, in transit, or on official business. The sub-
offices are managed by the PCVLs, with additional oversight provided by the country
director and programming staff. PCMOs also provide permission to Volunteers who
need to stay at the sub-offices for medical reasons.


5
 Although PC/Ghana refers to these locations as “regional sub-offices” they are considered hostels by the
agency and require annual re-approval by Peace Corps’ Chief of Staff.

Final Program Evaluation Report: Peace Corps/Ghana                                                     16
According to PCM section 218.6, Peace Corps has determined that hostels draw
Volunteers away from their communities and can be a venue for excessive and dangerous
behavior when poorly managed. The Peace Corps' policy on the use of hostels by
Volunteers is intended to ensure that:
         (a) Volunteers are safe when away from their sites;
         (b) Hostels used by Volunteers are not venues for excessive, illegal, or potentially
             dangerous behavior;
         (c) Hostels are not overused by Volunteers or become magnets that unduly draw
             them from their sites and the local culture; and
         (d) Hostels are well-managed (e.g., secure, guarded, clean).

A 2007 OIG investigation determined that PC/Ghana’s sub-offices were used
excessively, Volunteers were not obtaining proper approval to use the sub-offices, and
Volunteer activities at these locations violated the post’s alcohol and drug use policies.
In light of the investigation, the post changed its policies regarding sub-office use.
Visitors must now sign in and state the purpose of their visit. Volunteers must also
indicate whether they have received permission from Peace Corps staff members to use
the sub-office. The PCVLs are responsible for sending the guard logs to the PC/Ghana
office where APCDs and other staff can access them and analyze the frequency of
Volunteer visits.

The OIG evaluation collected and analyzed sign-in sheets for both sub-offices covering
the one-week period January 24 – January 30, 2009. Data from this analysis is included
in the tables below:

         Table 5: Summary of Nightly Sub-office Occupancy
                                                           Date
        Sub-office       1/24        1/25       1/26       1/27        1/28        1/29        1/30
                         (Sat)      (Sun)      (Mon)      (Tues)      (Wed)      (Thurs)       (Fri)
        Tamale             2          1          0          0           0           4            6
        Kumasi             3          1          0          3           1           2            2

         Table 6: Sub-office Use Analysis
                      Number of             Number of                                   Average
                                                                   Average
                     non-Volunteer          overnight                                  number of
                                                                  duration of
                       overnight          visitors in one                            people staying
                                                                     visit
                         guests                week                                    per night
        Tamale             1                     9                 1.7 nights          1.9 people
        Kumasi             1                     96                1.9 nights          1.7 people


Although the sub-regional office sign-in sheets indicate that some Volunteers stayed
without receiving prior permission, Volunteer use of the sub-offices did not appear to be

6
 One visitor, a non-Volunteer caretaker, was not included in the calculation since his/her length of stay was
unknown.

Final Program Evaluation Report: Peace Corps/Ghana                                                        17
excessive. APCDs stated that they frequently receive prior notification from Volunteers
who want to stay in the sub-offices. No concerns were noted with the use of the sub-
offices, and it appears they are currently being used properly by Volunteers in PC/Ghana.

PCVLs were not consistently participating in primary projects as required by Peace
Corps.

PC/Ghana has two PCVLs: one is located in the Kumasi sub-office and the other is in the
Tamale sub-office. According to the Kumasi and Tamale PCVL manuals, “The
Volunteer Leader serves to enhance the effectiveness of support provided to Volunteers
in the field. S/he walks a delicate balance between staff and Volunteers.” Some of the
PCVLs’ tasks outlined in the PCVL manuals include visiting Volunteers and providing
them support, technical assistance, and guidance; serving as a liaison among Volunteers
and Peace Corps staff; aiding in site selection; managing a sub-office, including a
resource library; and serving as an imprest fund sub-cashier.

PCM section 202.3.2 states:
       As a matter of law, a Volunteer Leader is first and foremost a Volunteer.
       Thus, except as specified in this manual section, all other Peace Corps
       policies and responsibilities applicable to Volunteers and Trainees also
       apply to Volunteer Leaders. Accordingly, Volunteer Leaders must, in
       addition to their special Volunteer Leader services, be involved in at least
       one substantive Volunteer program or activity with an assigned
       counterpart.

Despite PCM guidance, one PCVL stated that he/she does not have a Volunteer
assignment or counterpart, and the other PCVL stated that he/she does not have a
counterpart but is currently working on a primary project. While both the Kumasi and
Tamale PCVL manuals state that “The Volunteer Leader should spend part of his/her
time in project related activity,” the Tamale PCVL manual provides conflicting
information about the PCVL’s priorities. This document states, “While the Tamale
PCVL is often able to take on substantial primary and secondary projects outside of his or
her sub-office specific Peace Corps duties – official Peace Corps business should always
be his or her first priority.”

The last OIG evaluation report for PC/Ghana was issued in March 2002 and cited a
similar problem with the post’s use of PCVLs. The report found that PCVLs did not
have time to work on project activities due to their sub-office administrative duties and
recommended “that the post reduce the administrative duties assigned to the Volunteer
leaders and to allow them more time to work on project-related and Volunteer training
activities.”




Final Program Evaluation Report: Peace Corps/Ghana                                          18
                 We recommend:

                   13. That the post assign PCVLs to a primary project
                       that includes a counterpart and/or supervisor and
                       require the PCVLs to submit performance reports.


Volunteers were not regularly submitting performance reports.

Volunteers in PC/Ghana are required to submit written quarterly reports, except for
Education Volunteers who submit reports three times a year at the end of each school
term. Programming staff compile the data from Volunteers’ reports and send it to Peace
Corps headquarters, where it goes through the project status review process and is
reported annually to Congress. Two indicators that rely on input from Volunteers’
performance reports and are presented to the Congress in the Peace Corps annual
Performance and Accountability Report are: (1) individuals assisted by Volunteers and
(2) service providers trained by Volunteers. Despite the post’s requirement that all
Volunteers submit performance reports, some are not submitting them in a timely
manner.

The OIG reviewed the quarterly report submissions for the 30 Volunteers interviewed as
part of this evaluation. Twenty-one Volunteers should have submitted a report for the
fourth quarter of 2008. 7 Nine of these Volunteers (43%) had not submitted a report at the
time this review was conducted. Several APCDs mentioned that it can be difficult to get
Volunteers to submit their reports on time. One APCD commented, “Sometimes we need
to coax them a little to get their quarterly reports. . . The biggest challenge is getting them
to give timely, thoughtful submissions.” Given the significance of this data, it is
important for all Volunteers who are contributing to a primary project, including PCVLs,
to submit accurate, timely reports. The OIG notes that PC/Ghana is in the process of
implementing the Volunteer Reporting Tool to Volunteers, which may further improve
the post’s performance reporting.


                 We recommend:

                   14. That the post reinforce to Volunteers the
                       importance of submitting accurate and timely
                       performance data.




7
 Seven Volunteers were sworn-in in December 2008 and were not required to submit a report for Q4 2008.
The two PCVLs are not required by PC/Ghana to submit a quarterly report.

Final Program Evaluation Report: Peace Corps/Ghana                                                 19
Adding full-time grants management responsibilities to the APCD role is too
burdensome for a single staff position in PC/Ghana.

PC/Ghana operates Small Project Assistance (SPA), Peace Corps Partnership Program
(PCPP), and Volunteer Activities Support and Training (VAST) grant programs that
Volunteers can apply to for primary or secondary project funding. Due to a staff vacancy
in the training department, grants have been managed by one of the APCDs.
Responsibilities for VAST grants are being transitioned to the PEPFAR Program
Assistant, a new staff member who joined in February 2009. Senior management at the
post stated that the SPA and PCPP grant management responsibilities will be transitioned
to another staff member once the vacancy is filled and training staff roles and
responsibilities have been redefined. In the meantime, the workload appears to be too
burdensome for one staff member who is also responsible for managing over twenty
Volunteers. This has resulted in less support for these Volunteers, particularly in the
areas of communication and quarterly report feedback. Sample comments from affected
Volunteers include:

       “He works so hard . . . and does all the grants. . . Sometimes I don't
       receive all the feedback but I understand why.”

       “I've been told there's a lot of work piled up on him. SPA and PEPFAR. I
       feel like it's not his fault.”

A few Volunteers stated that the APCD’s workload has also resulted in slower grant
review times. One Volunteer who applied for a grant commented, “[The] APCD has
been busy. He has to look at proposals from all Volunteers. That slows things down a
little bit.”


              We recommend:

                15. That the post reassign grants management
                    responsibilities to non-APCD staff member.


The post has not identified a Medical Supply Inventory Clerk and an Acceptance Point
Clerk.

PCM section 734.3.4 states:

       The Medical Supply Inventory Control Clerk (MSIC Clerk) is designated
       by the Country Director. The MSIC Clerk maintains the Medical
       Inventory Control Log, which houses the inventory status of all medical
       supplies that are specially designated or controlled substances purchased,
       received, and stocked at post. The MSIC Clerk must be a person from
       outside the Medical Unit staff.

Final Program Evaluation Report: Peace Corps/Ghana                                     20
 The Acceptance Point Clerk (APC) is responsible for receiving medical supplies
at post and coordinating their initial inventory and transfer to the Medical Unit.
The APC works with both the MSIC Clerk and the PCMO to ensure that medical
supplies are delivered and inventoried. The APC must not be an individual
assigned to the Medical Unit staff, and cannot serve as the MSIC Clerk. Further,
the APC may not perform the quarterly inventory of medical supplies.

PC/Ghana maintains two medical inventories – one for controlled substances and another
for all other medical supplies. According to the PCMOs, both inventories are updated as
supplies are used and are reconciled once a month. However, both inventories were
maintained and updated by the PCMOs and not someone outside the Medical Unit
serving as MSIC Clerk. The PCMOs also indicated that an APC still needs to be
appointed in order to comply with PCM section 734.3.4.


               We recommend:

                 16. That the country director assign a Medical Supply
                     Inventory Control Clerk and Acceptance Point
                     Clerk in accordance with the Peace Corps policy
                     and provide any training necessary for the staff in
                     these roles.


Although region leadership supports an office move, the post has encountered
obstacles that have prevented securing a new office facility.

PC/Ghana is currently operating in a facility that was built as a private residence. A fire
marshal from the Department of State conducted a courtesy inspection of the facility in
January 2009 and found that the facility “is bad” and “aged.” Problems with the facility
include electrical devices that place the office at risk of fire, an inadequate alarm system
and firewall, and insufficient escape routes.

Peace Corps headquarters, the Embassy, and post staff acknowledge that PC/Ghana needs
an improved facility and would like PC/Ghana to have a new office by the 50th
anniversary celebration in 2011. The region has agreed to help the post secure a new
office location. Like all Peace Corps office locations, a new facility requires inspection
and approval by the Regional Security Officer and signed collocation and setback
waivers from the Department of State.

In the past, the post has identified possible new office spaces but has encountered
obstacles to obtaining the necessary approvals. According to post staff, other
organizations seeking office space occupy vacant locations before PC/Ghana is able to
complete its process. The process needs to move faster in order for the post to
successfully secure a new facility.



Final Program Evaluation Report: Peace Corps/Ghana                                         21
               We recommend:

               17. That the region and post develop a strategy to
                   obtain an improved facility and engage stakeholders
                   needed for timely approval.


PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR)

The final objective of this post evaluation is to answer the question “to what extent is the
post able to adequately administer the PEPFAR program, support Volunteers, and meet
its PEPFAR objectives?” To answer this question, we evaluate:
   •   Whether the post is implementing its PEPFAR objectives as laid out in the annual
       implementation plan.
   •   Relationships between the post and coordinating partners.
   •   Whether Volunteers are fulfilling HIV/AIDS-related assignments and handling
       related challenges.

In reviewing the post’s PEPFAR objectives and Volunteers’ assignments and related
challenges, the OIG found no significant areas of concern that would warrant action by
the post.

Regional management anticipates that post’s PEPFAR funding will increase and expects
post to plan accordingly. The post has just hired a PEPFAR Coordinator, which will help
to strengthen relationships between post and its coordinating partners—other U.S.
government partners that share PEPFAR funds in country.

In interviews, USAID representatives stated that PC/Ghana’s focus on anti-stigma
programs and education and awareness activities are helping to stop the spread of
HIV/AIDS to the general population, while other U.S. partners focus on Ghana’s high-
risk populations. One USAID representative responsible for PEPFAR implementation in
country described Volunteers as an asset particularly at the community level; he
described their unique position as a diverse group that contributes innovative ideas they
have tested in the field—something the other U.S. government partners do not have the
flexibility to do.




Final Program Evaluation Report: Peace Corps/Ghana                                        22
                                      POST STAFFING

At the time of our field visit, PC/Ghana had 34 staff positions, one of which was vacant.
The positions included three U.S. direct hire employees (USDH), six foreign service
national (FSN), and 25 personal services contractors (PSC). The post also employs
temporary staff/contractors to assist with PST. Given the time of our visit, these
positions were not staffed. We interviewed 12 staff members.

                                   PC/Ghana Positions
                        Position                     Status                            Interviewed
    Country Director                                 USDH                                   X
    Programming and Training Officer                 USDH                                   X
    Administrative Officer                           USDH                                   X
    Safety and Security Coordinator                  PSC                                    X
    PCMO (2)                                         PSC                                    X
    Medical Secretary                                PSC
    Executive Secretary                              PSC
    IT Specialist                                    PSC
    APCD/Water/Sanitation and Health                 FSN                                     X
    Education
    APCD/Forestry/Environment                        FSN                                     X
    APCD/Small Enterprise Development                PSC 8                                   X
    APCD/Mathematics and Visual Art                  FSN                                     X
    Education
    APCD/Science and Computer Education              FSN                                     X
    Training Manager (vacant)                        PSC
    PEPFAR Program Assistant                         PSC
    PST Director                                     PSC                                     X
    Financial Assistant                              FSN
    Administrative Assistant (2)                     PSC
    Cashier                                          FSN
    General Services Officer                         PSC
    Assistant GSO/Mail Clerk                         PSC
    Motor Pool Supervisor                            PSC
    General Services Assistant/North                 PSC
    Program Secretary/Receptionist                   PSC
    Janitor (2)                                      PSC
    Maintenance Personnel                            PSC
    Driver (4)                                       PSC
    Driver/Mechanic                                  PSC



8
 Due to limitations on the number of FSNs a post can have, PC/Ghana is in the process of converting the
APCD position to PSCs. Future APCDs will be hired as PSCs.

Final Program Evaluation Report: Peace Corps/Ghana                                                    23
                        INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 30 Volunteers, 12 in-
country staff members, and 23 representatives from Peace Corps headquarters in DC, the
U.S. Embassy in Ghana, and key project partners.

                 Interviews Conducted with PC/Headquarters Staff,
                    Embassy Officials, and Key Project Partners
                         Position                         Organization
     Regional Director                             PC/Headquarters
     Regional Chief Administrative Officer         PC/Headquarters
     Regional Programming and Training Advisor     PC/Headquarters
     Regional Chief of Operations                  PC/Headquarters
     Country Desk Officer                          PC/Headquarters
     Safety & Security Desk Officer                PC/Headquarters
     AIDS Relief Coordinator                       PC/Headquarters
     HIV/AIDS Programming and Training Advisor PC/Headquarters
     SPA Program Coordinator                       PC/Headquarters
     Sub-Regional Programming and Training
                                                   PC/Headquarters
     Coordinator
     Peace Corps Safety & Security Officer         PC/Headquarters
     Chief, Field Assistance Division              PC/Headquarters
     Education Specialist                          PC/Headquarters
     Small Enterprise Development Specialist       PC/Headquarters
     Agriculture and Environment Specialist        PC/Headquarters
     Health Specialist                             PC/Headquarters
     Language Training Specialist                  PC/Headquarters
     Fire Marshal                                  U.S. Department of State
                                                   Office of the U.S. Global
     PEPFAR Core Team Leader
                                                   AIDS Coordinator (OGAC)
     Ambassador                                    U.S. Embassy in Ghana
     Acting Regional Security Officer              U.S. Embassy in Ghana
     Program Management Specialist                 USAID in Ghana
     Director General                              Ghana Education Service
     Deputy Executive Director/Operations          Ghana Tourist Board
     Marketing Manager                             Ghana Tourist Board




Final Program Evaluation Report: Peace Corps/Ghana                                  24
                      LIST OF RECOMMENDATIONS

WE RECOMMEND:

1. That post staff physically observe housing to ensure it meets the post’s minimum
   housing criteria before a Volunteer arrives at site.

2. That post staff include the purpose of collecting information on languages spoken in
   the community on the Site Survey Form.

3. That post staff update its site development process to include follow up in the
   community to determine which language the Trainee should learn during PST for the
   purposes of working on their primary assignment and for community integration.

4. That post staff better communicate the timeframe and purpose of the community
   needs assessment with community members during site development.

5. That post staff use multiple means of communication to obtain needs assessments
   from Volunteers in time for IST planning.

6. That post and programming leadership work with APCDs to clarify the post’s
   expectations for Volunteer support.

7. That the country director determine the process for Volunteers to escalate support
   issues and communicate it to staff and Volunteers.

8. That the country director define the PTO’s role in resolving Volunteer support
   problems and communicate expectations to staff and Volunteers.

9. That the post disseminate VAC meeting minutes, follow-up items, and issue
   resolution to all PC/Ghana Volunteers using an effective means of communication.

10. That the country director work with PCMOs to clarify the post’s and Volunteers’
    expectations for Volunteer diagnosis and follow up.

11. That the post clarify the out-of-site policy, update related documentation, and
    communicate this to staff and Volunteers.

12. That the country director require post staff to review the accuracy and completeness
    of the most critical sections of site locator forms.

13. That the post assign PCVLs to a primary project that includes a counterpart and/or
    supervisor and require the PCVLs to submit performance reports.


Final Program Evaluation Report: Peace Corps/Ghana                                       25
14. That the post reinforce to Volunteers the importance of submitting accurate and
    timely performance data.

15. That the post reassign grants management responsibilities to non-APCD staff
    member.

16. That the country director assign a Medical Supply Inventory Control Clerk and
    Acceptance Point Clerk in accordance with the Peace Corps policy and provide any
    training necessary for the staff in these roles.

17. That the region and post develop a strategy to obtain an improved facility and engage
    stakeholders needed for timely approval.




Final Program Evaluation Report: Peace Corps/Ghana                                     26
APPENDIX A

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
Memorandum

DATE:                  July 10, 2009

TO:                    Kathy Buller, Inspector General

FROM:                  Lynn Foden, Acting Director, Africa Region

CC:                    Kathy Rulon, Acting Chief of Staff
                       Michael Koffman, Country Director, Peace Corps/Ghana
                       Pam Martin, AIDS Relief Coordinator, OAR
                       Howard Anderson, Chief, Field Assistance Division, OPATS
                       Jeffrey West, Acting Confidential Assistant
                       Jennifer Brown, Country Desk Officer, Africa Region
                       Evan Baker, Country Desk Officer, Africa Region
                       Lori Carruthers, Executive Assistant, OIG

SUBJECT:               Africa Region’s Response to the OIG Preliminary Report on the
                       Program Evaluation of Peace Corps/Ghana

The Africa Region thanks the Office of the Inspector General for the Preliminary Report
on the Program Evaluation of Peace Corps/Ghana. Post is appreciative of the feedback
presented in this evaluation.

Post’s responses have been reviewed and integrated into this response. Region will
continue to work with post to ensure full implementation of the OIG recommendations.
The Region concurs with 17 of the 17 recommendations.

Attached please find our responses to the Preliminary Report on Peace Corps/Ghana.
Please let me know if you have any questions or comments on any of our responses.




                 Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                          July 10, 2009
                                                                                                                 Page 1
                              Response to Preliminary Report
                         Program Evaluation of Peace Corps/Ghana
                                        April 2009

Recommendation 1 That post staff physically observe housing to ensure it meets the
                 post’s minimum housing criteria before a Volunteer arrives at site.

                          Concur 1

                          The current practice of Peace Corps/Ghana is that APCDs visit
                          each Volunteer site at least twice, including looking at housing,
                          before a Volunteer arrives at that site. The communities provide
                          housing for the Volunteers, and APCDs use a housing checklist
                          with host country counterparts in order to clearly explain the
                          housing requirements.

                          While Peace Corps/Ghana staff already physically observe housing
                          for Volunteers, there are several challenges. Some communities
                          struggle to provide adequate Volunteer housing. Sometimes final
                          work or repair on houses is not done until just before a Volunteer
                          arrives, and the housing is not ready at the time of the final APCD
                          visit to the site. As many of these sites are multi-day travel
                          distance from the main Peace Corps office, it is impossible for
                          APCDs to make additional visits to all of these communities just
                          before the time that Trainees are to be sent to site.

                          In response to this recommendation, post expanded its APCD site
                          and housing inspection protocol by integrating staff members and
                          Volunteers into the process. Post provided each staff member and
                          Volunteer with updated housing checklists and guidance within the
                          checklist concerning how to assess Volunteer housing (See
                          Attachment 1A: Housing Checklist; and Attachment 1B:
                          Memorandum from CD to Ghana Staff and PCVs). Post then
                          provided individual training to staff and Volunteers as they were
                          identified to conduct follow-up housing inspections (See
                          Attachment 1C: Memo regarding Volunteer Housing and Housing
                          Inspection Training). Post then implemented a system where the
                          Volunteer or staff “inspector” forwards the completed inspection
                          sheet as a report to the responsible APCD.


1
 Attachment 1A. Housing Checklist: Standard Accommodation For Peace Corps Volunteers
Attachment 1B. Memorandum from Country Director to Ghana staff and Volunteers clarifying
minimum housing requirements for Volunteers
Attachment 1C. Memo to the File regarding Volunteer Housing and Housing Inspection Training

                    Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                             July 10, 2009
                                                                                                                    Page 2
                          Beginning in May 2009, post implemented the expanded Volunteer
                          housing inspection system. As a result, post expects to conduct
                          more follow-up inspections on houses in those communities
                          struggling to comply with Peace Corps minimum requirements.

                          Date of Completion: May 15, 2009


Recommendation 2 That post staff include the purpose of collecting information on
                 languages spoken in the community on the Site Survey Form.

                          Concur 2

                          Peace Corps/Ghana has a separate site survey/volunteer request
                          form for each project area (Please see Attachments 2A-2D: Site
                          Survey Forms). Each of these forms has been amended since the
                          IG evaluation, to include the following question:

                          Which Ghanaian language(s) should we teach or should a
                          Volunteer learn in order to work effectively in the community?

                          Date of completion: APCDs have been using the updated forms
                          since May 4, 2009.


Recommendation 3 That post update its site development process to include follow up
                 in the community to determine which language the Trainee should
                 learn during PST for the purposes of working on their primary
                 assignment and for community integration.

                          Concur 3

                          Post’s site development process currently includes the suggested
                          community follow-up and is adequate to determine which language
                          a Trainee should learn during PST. Post bases its decisions

2
  Attachment 2A. Peace Corps Ghana Education Site Survey Form
Attachment 2B. Peace Corps/Ghana Health/Water and Sanitation Site Survey Form
Attachment 2C. Peace Corps Ghana Environment Sector Volunteer Placement Site Survey Form
Attachment 2D. Peace Corps Small Enterprise Development Project Request Form for a Business Advisor
Volunteer
 
3
  Attachments 2A-2D. Site Survey Forms
Attachment 3A. Language Tutoring Memorandum
Attachment 3B Statement of Work for Language Coordinator
Attachment 3C-3I. VADS for ICT, Math, Science, Art, Environment, Wat/San, SED
Attachment 3J. Bridge to PST 2009

                    Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                             July 10, 2009
                                                                                                                    Page 3
      concerning which languages to teach individual Trainees upon
      input solicited and obtained from the hosting communities (See
      Attachments 2A-2D, Site Survey Forms). Many communities
      contain speakers of many different languages. Often, post must
      make a judgment call as to which language to teach in situations
      where multiple groups in one community speak different
      languages.

      In addition to resolving this issue through the site development
      process, post has addressed Volunteer expectations concerning the
      ability to communicate with community members in settings where
      multiple languages are spoken by taking the following actions
      described below.

      First, post publicized its existing policy of making language
      tutoring funds available to all Volunteers interested in improving
      language skills in any Ghanaian language of their choice.
      Currently, fewer than 5% of Volunteers take advantage of this
      program (See Attachment 3A: Language Tutoring Memorandum).

      Secondly, post has requested that a full time language coordinator
      be added to its current staff structure to assist in all areas of
      Volunteer language training, language materials development and
      language instructor hiring and development. The Region will
      approve this request, pending adequate budget allocation (See
      Attachment 3B: Statement of Work for Language Coordinator).

      Post has amended its Volunteer Assignment Descriptions (VADs)
      by adding language concerning some of the language challenges
      that Volunteers can expect to face during their two year service in
      Ghana and the availability of tutoring funds to address the issue
      (See Attachments 3C-3I: Sector VADS, section entitled Training
      For Your Job: Cross Culture and Language Training). Post also
      added language to clarify expectations around language training in
      the Bridge to PST document, which trainees receive prior to
      Staging (See Attachment 3J: Bridge to PST, section entitled
      Language Training).

      Date of completion: The language tutoring policy has been
      clarified to current Volunteers in Ghana as of May 15, 2009. New
      Trainees received the updated Bridge to PST on May 21, 2009.
      Placement will begin sending out the new VADs in December
      2009 when invitation season begins for the FY10 input.



Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                         July 10, 2009
                                                                                                Page 4
Recommendation 4 That post staff better communicate the timeframe and purpose of
                 the community needs assessment with community members during
                 site development.

                         Concur 4

                         The most commonly reported frustration by Volunteers is that
                         community members mistakenly view them primarily as funding
                         sources for community projects and become disappointed when
                         Volunteers engage in building capacity and relationships as
                         opposed to providing “stuff” immediately upon arrival. Africa
                         Region and Peace Corps/Ghana both instruct our Volunteers to use
                         their first three months at site to form relationships and conduct
                         needs assessments. We also inform communities of this timeline
                         during site development. In fact, Peace Corps/Ghana conducts
                         counterpart/supervisor workshops as part of PST, in which they
                         bring counterparts and supervisors for each Trainee to PST and
                         address this issue specifically. Peace Corps/Ghana will continue to
                         educate host communities about this issue during site development.

                         Peace Corps/Ghana invests significant time and effort in educating
                         and training counterparts and supervisors about Peace Corps, its
                         abilities and its limitations. We then expect the counterparts and
                         supervisors to serve as Ambassadors, assisting in Volunteer
                         community integration. Thus, in response to this recommendation,
                         Peace Corps/Ghana updated the Counterpart Handbook to
                         specifically address a Volunteer's first three months at site in a
                         needs assessment role (See Attachment 4A: Supervisor/
                         Counterpart Manual, pp. 9 and 28). Additionally, post has re-
                         designed the Counterpart Workshop at PST to specifically address
                         a Volunteer's first three months at site and conducting needs
                         assessments (See Attachment 4B: Counterpart Workshop
                         Schedule).

                         Date of Completion: May 15, 2009


Recommendation 5 That post use multiple means of communication to obtain needs
                 assessments from Volunteers in time for IST planning.

                         Concur 5

4
 Attachment 4A. Supervisor/Counterpart Manual
Attachment 4B. Counterpart Workshop Schedule
5
 Attachment 5A. SMS Memorandum
Attachment 5B. Peace Corps Ghana July 2009 Newsletter
                   Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                            July 10, 2009
                                                                                                                   Page 5
                            Post is now using and will continue to use the following
                            multiple/redundant means of communication to obtain needs
                            assessments from Volunteers for IST planning: e-mail, newsletter
                            and text messaging. Additionally, post has contracted with an SMS
                            provider to increase Volunteer support in this area (See
                            Attachment 5, SMS Memorandum).

                            Post’s next IST will take place in September 2009. In anticipation
                            of this IST (and for other efficiency purposes) post has contracted
                            with an SMS provider to give them an additional method of
                            communication with Volunteers. Post staff will send an SMS
                            reminder message to all involved Volunteers in July and also
                            included a reminder in the July newsletter (See Attachment 5B:
                            July 2009 newsletter, pages 24-26).

                            Date of completion: July 2009 and ongoing. Post included the
                            2009 PEPFAR IST Needs Assessment in the July 2009 newsletter
                            and will begin sending SMS and e-mail reminders for the IST on
                            an ongoing basis.


Recommendation 6 That post and programming leadership work with APCDs to
                 clarify the post’s expectations for Volunteer support.

                            Concur 6

                            The support issues underlying this recommendation stem from the
                            ever present challenges of communication between APCDs and
                            Volunteers. In January 2009, post conducted a multi-day staff
                            training targeting Volunteer Support. Additionally, in March
                            2009, post conducted a two day All Staff workshop targeting
                            communication with Volunteers as it relates to Volunteer support.
                            Moreover, post leadership continues to work with APCDs
                            informally on a daily basis on issues of Volunteer support (See
                            Attachments 6A-6M for specific trainings given to APCDs to
                            clarify Post expectations in the areas of Volunteer Support during
                            January and March workshops).

                            Date of Completion: March 31, 2009.

Recommendation 7 That the country director determine the process for Volunteers to
                 escalate support issues and communicate it to staff and Volunteers.


6
    Attachments 6A-6M. Training documents from APCD volunteer support workshops.

                      Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                               July 10, 2009
                                                                                                                      Page 6
                         Concur 7

                         Post has distributed the attached Memorandum to all Volunteers
                         and Staff in May 2009 regarding Volunteer support options
                         (Attachment 7A). This memo was also published in the June 2009
                         Newsletter (Attachment 7B, pages 4-6) and in the revised Peace
                         Corps Ghana Volunteer Handbook (Attachment 7C, pages 10-11
                         and 17-19). Post will also include the language in the Staff
                         Handbook when it is revised in Q1 2010.

                         Date of Completion: May 18, 2009 and ongoing.


Recommendation 8 That the country director define the PTO’s role in resolving
                 Volunteer support problems and communicate expectations to staff
                 and Volunteers.

                         Concur 8

                         Post has distributed the attached Memorandum to all Volunteers
                         and staff, which clarifies how Volunteers can use the PTO in
                         resolving support problems (see Attachment 8A). This policy was
                         also published in the updated Peace Corps Ghana Volunteer
                         Handbook (see Attachment 8B, pages 17-19).

                         Date of Completion: May 18, 2009

Recommendation 9 That the post disseminate VAC meeting minutes, follow-up items,
                 and issue resolution to all PC/Ghana Volunteers using an effective
                 means of communication.

                         Concur 9

                         Post began disseminating VAC meeting minutes, follow-up items
                         and issue resolution to each Volunteer via the monthly newsletter
                         in February 2009 and will continue to do so. The newsletter is sent

7
 Attachment 7A. Memorandum to PCVs about support options.
Attachment 7B. June 2009 newsletter, including above memorandum.
Attachment 7C. Peace Corps Ghana Volunteer Handbook, July 2009 (page 17-19)
8
 Attachment 8A. Memorandum to PCVs about support options.
Attachment 8B. Peace Corps Ghana Volunteer Handbook, July 2009 (page 17-19)
9
 Attachment 9A. PC/Ghana newsletter, February 2009 (pages 22-26)
Attachment 9B. PC/Ghana newsletter, April 2009 (pages 4-9)

                   Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                            July 10, 2009
                                                                                                                   Page 7
                         out electronically and via hard copy on or about the first of each
                         month (See Attachments 9A and 9B, Peace Corps Ghana
                         newsletters from February 2009 and April 2009, containing
                         quarterly VAC meeting notes from the December 2008 and March
                         2009 meetings, respectively).

                         Date of Completion: February 2009 and on-going

Recommendation 10 That the country director work with PCMOs to clarify the post’s
                  and Volunteers’ expectations for Volunteer diagnosis and follow-
                  up.

                         Concur 10

                         Post has updated its training materials in order to clarify post and
                         Volunteer expectations for Volunteer diagnosis and follow-up.
                         Post is conducting PST trainings using the updated attachments to
                         this recommendation. Additionally, PCMOs will conduct follow-
                         on sessions at each IST, using these updated materials (See
                         Attachments 10A: Policies and Procedures for PST 2009, 10B:
                         Medical Handbook May 2009, 10C: PCV Rights and
                         Responsibilities, and 10D: OMS Rights and Responsibilities). In
                         addition, many medical procedures are addressed in the Peace
                         Corps Ghana Volunteer Handbook (See Attachment 10E, pages
                         80-88).

                         Date of Completion: May 2009 and on-going

Recommendation 11 That the post clarify the out-of-site policy, update related
                  documentation, and communicate this to staff and Volunteers.

                         Concur 11

                         Post has updated the out-of-site policy and shared it with
                         Volunteers and staff as of July 2009 (See Attachment 11A: Ghana
                         Revised Time Away From Community Policy).



10
  Attachment 10A. Policies and Procedures PST 2009
Attachment 10B. Medical Handbook, May 2009
Attachment 10C. PCV Rights and Responsibilities
Attachment 10D. OMS Rights and Responsibilities
Attachment 10E. Peace Corps Ghana Volunteer Handbook, June 2009
11
  Attachment 11A. Ghana Revised Time Away From Community Policy.
Attachment 11B: Peace Corps Ghana Volunteer Handbook, June 2009

                   Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                            July 10, 2009
                                                                                                                   Page 8
                          The new policy is printed in the updated PCV handbook which
                          was distributed to PCVs on July 6, 2009 (See Attachment 11B:
                          Peace Corps Ghana Volunteer Handbook, pages 19-29).

                          Date of completion: July 6, 2009


Recommendation 12 That the country director require post staff to review the accuracy
                  and completeness of the most critical sections of site locator forms.

                          Concur 12

                          The country director has issued a Site Locator Form Policy memo
                          clarifying the APCD and Volunteer roles and deadlines in
                          completing site locator forms. The Site Locator Form Policy
                          memo was distributed to Volunteers on July 1, 2009 (See
                          Attachment 12A: Site Locator Memo).

                          The country director has also implemented a “quarterly stand
                          down” policy in order to update and ensure the accuracy of safety
                          and security-related information not only on site locator forms, but
                          in VIDA as well. The first four hour stand down took place on
                          May 4th with excellent results. See sample Updated Site Locator
                          Form (Attachment 12B) and May 4, 2009 Senior Staff Meeting
                          Minutes (Attachment 12C) regarding VIDA stand down.

                          Date of Completion: July 1, 2009 and on-going

Recommendation 13 That the post assign PCVLs to a primary project that includes a
                  counterpart and/or supervisor and require the PCVLs to submit
                  performance reports.

                          Concur 13

                          Post currently has two PCVLs, and complete job descriptions have
                          been developed for them. In addition, the APCDs supporting those
                          PCVLs will require them to submit performance/quarterly reports
                          (Please see attachments 13A: Job Description for PCVL in
                          Kumasi; and 13B: Job Description for PCVL in Tamale).

12
  Attachment 12A. Site Locator Memo.
Attachment 12B. Sample of Updated Site Locator Form
Attachment 12C. Senior Staff Meeting Notes from May 4, 2009
13
  Attachment 13A. Job Description for PCVL in Kumasi.
Attachment 13B. Job Description for PCVL in Tamale.

                    Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                             July 10, 2009
                                                                                                                    Page 9
                          Date of Completion: June 29, 2009

Recommendation 14 That the post reinforce to Volunteers the importance of submitting
                  accurate and timely performance data.

                          Concur 14

                          The country director has facilitated a session at every IST since his
                          arrival in November, 2008. A major focus of these presentations is
                          communication between staff and Volunteers and the importance
                          of submitting accurate and timely performance data. The need for
                          Volunteer submission of accurate and timely performance data and
                          receipt of timely APCD feedback has been and will continue to be
                          a highlight of these sessions.

                          Additionally, SRPTC Carolina Cardona did multiple sessions with
                          PCVs on the new Volunteer Reporting Tool (VRT) during a TDE
                          workshop in Ghana which took place January 26-30, 2009. The
                          VRT/VRF training outlines from that workshop are attached
                          (Attachments 14A-14E). Post has been rolling out the new
                          Volunteer Reporting Tool (VRT) at ISTs and has engaged
                          Volunteers in designing the report. With the exception of the
                          Volunteers who will be COSing within the next three to four
                          months, all Volunteers are now using the new reporting format.

                          Date of Completion: June 1, 2009

Recommendation 15 That the post reassign grants management responsibilities to non-
                  APCD staff member.

                          Concur 15

                          In February, post hired Daniel Omane as an assistant program
                          manager to administer the PEPFAR program and its significant
                          grants component. Mr. Omane now administers all PEPFAR,
                          VAST and Mini-VAST grants from the Volunteer proposal stage
                          to the final reporting phase. His hiring has freed up APCDs from
14
  Attachment 14A. Volunteer Training Session for VRF
Attachment 14B. Volunteer Instructions on VRF
Attachment 14C. Ghana MRE
Attachment 14D. Ghana MRE WebEx
Attachment 14E. Ghana SRPTC Plan January 2009
15
  Attachment 15A. Statement of Work, PEPFAR PA
Attachment 15B. Final Offer Letter for Daniel Omane

                    Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                             July 10, 2009
                                                                                                                   Page 10
                         significant grants management activities. See attached offer letter
                         and statement of work, with relevant grants management duties
                         highlighted (Attachments 15A and 15B).

                         In addition to hiring Mr. Omane, post will request additional funds
                         for a “small grants administrator” position during the Ops process.
                         The Region supports this request, pending adequate budget
                         allocation.

Recommendation 16 That the country director assign a Medical Supply Inventory
                  Control Clerk and Acceptance Point Clerk in accordance with the
                  Peace Corps policy and provide any training necessary for the staff
                  in these roles.

                         Concur 16

                         The country director has assigned a Medical Supply Inventory
                         Clerk and Acceptance Point Clerk in accordance with Peace Corps
                         policy and has provided appropriate training (See Attachments
                         16A and 16B).

                         Date of Completion: June 2, 2009

Recommendation 17 That the region and post develop a strategy to obtain an improved
                  facility and engage stakeholders needed for timely approval.

                         Concur 17

                         The Region and Post have established a strategy and timeline for a
                         new office. Post will:
                            • identify an improved facility by December 31, 2009
                            • engage and finalize negotiations of the move during the
                                first half of calendar year 2010
                            • complete the move to the new property by December 31,
                                2010
                            • be fully operational by March 2011



16
  Attachment 16A. Memo of Assignment of Medical Supply Inventory Clerk and Acceptance Clerk
Attachment 16B. Inventory of Medical Supplies
17
  Attachment 17A. 50th Anniversary Office Move Memo.
Attachment 17B. UFR for Office Move (submitted during IPBS 2009)
Attachment 17C. Budget for Ghana Office Move (submitted during IPBS 2009)
Attachment 17D. Ghana UFR Contextual Memorandum and Rationale for Office Move

                   Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                                            July 10, 2009
                                                                                                                  Page 11
      The country director has had multiple preliminary discussions with
      the U.S. Ambassador in Ghana regarding this office move. He has
      also met with the RSO regarding co-location issues. Post is
      actively engaged in searching for properties and is currently
      negotiating with the Government of Ghana for financial or in-kind
      support. Region is supportive of this request. Once property is
      identified, post will then obtain co-location and other waivers (as
      necessary) from the RSO.

      Post plans to occupy its improved facility prior to the Peace Corps
      50th Anniversary Celebration in 2011. This office move is a high
      priority for both post and the Region (See Attachment 17A: 50th
      Anniversary Office Move Memo; Attachments 17B-C: UFR and
      Budget for Office Move; and Attachment 17D: UFR Contextual
      Memorandum and Rationale for Office Move).

      Expected Date of Completion: March 2011 (prior to the 50th
      Anniversary of Peace Corps Ghana).




Africa Region’s Response to the OIG Preliminary Report on the Program Evaluation of Peace Corps/Ghana
                                                                                         July 10, 2009
                                                                                               Page 12
APPENDIX B

                               OIG COMMENTS

Regional management concurred with all 17 recommendations and we have closed all
recommendations.

In their response, management described actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that the region or post has taken these
actions nor that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities. However, when warranted, we may
conduct a follow-up review to confirm that action has been taken and to evaluate the
impact.
APPENDIX C


              PROGRAM EVALUATION COMPLETION
                    AND OIG CONTACT

OIG CONTACT                   Following issuance of the final report, a stakeholder
                              satisfaction survey will be distributed. If you wish to
                              comment on the quality or usefulness of this report to help
                              us improve our products, please e-mail Susan Gasper,
                              Acting Assistant Inspector General for Evaluations and
                              Inspections, at sgasper@peacecorps.gov, or call (202)
                              692-2908.

STAFF                         This program evaluation was conducted under the
                              direction of Shelley Elbert, Assistant Inspector General for
ACKNOWLEDGEMENTS
                              Evaluations and by Evaluators Heather Robinson and
                              April Thompson.




FinalProgram Evaluation Report: Peace Corps/Ghana                                       1
          REPORT FRAUD, WASTE, ABUSE,
             AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
